HHS/OIG, Audit -"State of Texas' Efforts to Account for and Monitor Sub-Recipients' Use of Bioterrorism Hospital
Preparedness Program Funds,"(A-06-03-00058)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"State of Texas' Efforts to Account for and Monitor Sub-Recipients' Use of Bioterrorism Hospital Preparedness Program
Funds," (A-06-03-00058)
September 16, 2003
Complete
Text of Report is available in PDF format (462 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our overall objective was to determine if the Texas Department of Health (Department of Health) has adequate procedures
in place to record, summarize and report Bioterrorism Hospital Preparedness Program (Program) costs in accordance with
the approved cooperative agreements.  We found that the Department of Health (1) generally accounted for program funds
in accordance with the terms and conditions of the cooperative agreement except that it did not segregate expenditures
by phase, within a phase, or by priority planning area; (2) did not supplant current State or local expenditures with program
funds; and (3) had adequate procedures in place to monitor sub-recipient activities.   We
recommended procedural corrections with which the Department of Health concurred.